U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report


     FOOD AND NUTRITION SERVICE
CHILD AND ADULT CARE FOOD PROGRAM
CALIFORNIA DEPARTMENT OF EDUCATION
      STATE OVERSIGHT OF SMALL,
        INDEPENDENT CENTERS




             Report No.
             27010-20-SF
             November 2000
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                        Western Region - Audit
                                    75 Hawthorne Street, Suite 200
                                    San Francisco, CA 94105-3920
                                TEL: 415-744-2851 FAX: 415-744-2871



DATE:                November 30, 2000

REPLY TO
ATTN OF:      27010-20-SF

SUBJECT:      FNS Child and Adult Care Food Program - California Department of
              Education - State Oversight of Small, Independent Centers

TO:           Allen Ng
              Regional Administrator
              Western Region
              Food and Nutrition Service

ATTN:         Tony Sommer, Sr.
              Acting Director
              Financial Management

This report presents the results of our audit of the oversight of small, independent child care
centers by the State of California. Your written response to the draft report is included as
exhibit E to the report. We have made several revisions to the report based on the
suggestions in your written response.

We have accepted your management decision on all recommendations in the report. The
Office of the Chief Financial Officer (OCFO), U.S. Department of Agriculture, has
responsibility for monitoring and tracking final action on the findings and recommendations.
 Please note that final action on the findings and recommendations should be completed
within 1 year to preclude listing in the Semiannual Report to Congress. Follow your
agency’s internal procedures for forwarding final action correspondence to OCFO.

We appreciate the cooperation and assistance provided by your staff during the audit.



/s/ by Fred San Buenaventura for

SAM W. CURRIE
Regional Inspector General
 for Audit
                    EXECUTIVE SUMMARY
                  FOOD AND NUTRITION SERVICE
              CHILD AND ADULT CARE FOOD PROGRAM
             CALIFORNIA DEPARTMENT OF EDUCATION
        STATE OVERSIGHT OF SMALL, INDEPENDENT CENTERS

                      AUDIT REPORT NO. 27010-20-SF


                                     We performed a review of the California
     RESULTS IN BRIEF                Department of Education’s (CDE) oversight
                                     of independent child care centers
                                     participating in the Child and Adult Care
           Food Program (program). Although day care home providers require
           a sponsor to participate in the program, independent centers may
           operate on their own, with direct State oversight. Our review sample
           consisted of 15 centers that were operated by private, nonprofit
           organizations and that managed 3 or fewer sites. We focused on
           these “small” centers because our previous audits of the program
           found that small private, nonprofit organizations were most apt to lack
           the controls needed to comply with program requirements. There
           were 287 small, independent centers in the State in fiscal year 1998.

              We found multiple deficiencies at each of the 15 centers we visited.
              We considered the deficiencies found at three of the centers to be
              serious enough to warrant that CDE determine if the centers should
              be considered seriously deficient. All three of the centers claimed
              meals served to ineligible children who were attending schools that
              were collocated with the day care centers. Two of the centers
              claimed meals near or at their licensed capacity, even though the
              meal counts we observed were much less. One of the “nonprofit”
              centers was being run by a for-profit organization that received over
              $100,000 in program funds over a 5-year period.

              Largely, CDE was unaware of the severity of the deficiencies at the
              three centers. One CDE reviewer noted that one of the centers
              appeared to be commingling school-aged and preschool children in




USDA/OIG-A/27010-20-SF                                                      Page i
             order to maximize meal claims, but the State’s actions to stop the
             center’s overclaims had no effect. This center could not produce
             adequate records during our visit and refused to let us look at its bank
             statements and checkbook register, which were its only record of
             deposits and expenditures of program funds.

             The 3 above centers shared deficiencies with the remaining 12 in our
             sample. Specifically,

                •   all 15 centers made errors in determining the eligibility
                    category of their enrolled children and reporting this
                    information to CDE,

                •   five centers served meals which did not meet program
                    nutritional standards,

                •   eight centers did not exercise sufficient care in their handling of
                    food to ensure the risk of contamination was minimized,

                •   three centers did not have the required number of adults
                    present to care for the number of children in attendance, and

                •   all 15 centers did not comply with one or more other program
                    requirements, including areas such as monitoring and training
                    of staff and maintenance of menu production records.

             In several cases, it was apparent that center operators and staff were
             unaware of program requirements. CDE provides most of its training
             informally during its triennial visits to the centers. It invites center
             employees to receive formal training but on a volunteer basis only.
             Ten of the 15 program directors had not attended CDE-sponsored
             training since September 1998. They said the training was not
             required and was inconvenient. Although CDE reviewers found many
             of the same deficiencies we found, the informal training they
             conducted onsite did not result in any long-term correction; the types
             of deficiencies still existed at the time of our audit.

             In some cases, we concluded the noncompliance was willful. We
             believe that CDE should revise its review procedures to require
             unannounced visits. Because unannounced visits provide




USDA/OIG-A/27010-20-SF                                                         Page ii
              reviewers with a more accurate picture of a center’s operations, these
              visits would allow CDE reviewers to better detect instances of
              noncompliance with program requirements and better prevent their
              recurrence.

                                       We recommend that the Food and Nutrition
 KEY RECOMMENDATIONS                   Service


              •   Require CDE to recover $101,668 paid to Shelton’s Primary
                  Education Center.

              •   Recommend that CDE revise its review procedures to make
                  unannounced visits to centers part of its normal review process.

              •   Require CDE to revise its training requirements to improve
                  centers’ compliance with program requirements. The revisions
                  should include a requirement that key employees from each center
                  annually attend CDE-provided or approved training, and that
                  recordkeeping requirements be covered.

              •   Require CDE to revise its review procedures relating to certain
                  critical licensing requirements, such as safe food handling and
                  staff/child ratios.

              •   Require CDE to take specified steps to ensure compliance by
                  centers with the requirement that they operate their food services
                  in a nonprofit manner.

              •   Require CDE to take follow-up action to review the operations of
                  three of the centers we visited at which we found serious
                  deficiencies.

                                      In its response, the Food and Nutrition
    AGENCY RESPONSE                   Service (FNS) concurred with the findings
                                      and      recommendations   except      for
                                      Recommendations No. 4 and 13. FNS
          suggested revisions to these two recommendations. The response is
          included in its entirety as exhibit E to this report.

                                     Based on the suggestions in FNS’
        OIG POSITION                 written response, we have revised the
                                     wording of Recommendations No. 4 and 13.
                                     Based on these changes, we have
              accepted FNS’     management decision on all recommendations.


USDA/OIG-A/27010-20-SF                                                      Page iii
                                            TABLE OF CONTENTS

EXECUTIVE SUMMARY.........................................................................................................i
          RESULTS IN BRIEF.........................................................................................................i
          KEY RECOMMENDATIONS ............................................................................................iii
          AGENCY RESPONSE.....................................................................................................iii
          OIG POSITION.................................................................................................................iii

INTRODUCTION.......................................................................................................................1
          BACKGROUND ...............................................................................................................1
          OBJECTIVES...................................................................................................................3
          SCOPE ............................................................................................................................3
          METHODOLOGY.............................................................................................................4

FINDINGS AND RECOMMENDATIONS..............................................................................6

CHAPTER I –THE STATE AGENCY NEEDS TO ENSURE THAT CENTER
PERSONNEL RECEIVE ADEQUATE GUIDANCE AND TRAINING IN PROGRAM
REQUIREMENTS ......................................................................................................................6

          FINDING NO. 1 – CENTERS SUBMITTED INACCURATE OR INADEQUATELY
          SUPPORTED CLAIMS ....................................................................................................7
          Recommendation No. 1 ...................................................................................................16
          Recommendation No. 2 ...................................................................................................16

          FINDING NO. 2 – CENTERS SERVED MEALS THAT DID NOT MEET NUTRITIONAL
          STANDARDS ...................................................................................................................17
          Recommendation No. 3 ...................................................................................................21

          FINDING NO. 3 – CENTERS DID NOT MAINTAIN ENVIRONMENTS FREE OF
          HEALTH AND SAFETY RISKS ........................................................................................22
          Recommendation No. 4 ...................................................................................................25
          Recommendation No. 5 ...................................................................................................26

          FINDING NO. 4 – CENTERS NEED GUIDANCE ON RECORDKEEPING,
          MONITORING, AND TRAINING REQUIREMENTS .........................................................26
          Recommendation No. 6 ...................................................................................................31
          Recommendation No. 7 ...................................................................................................31
          Recommendation No. 8 ...................................................................................................32
          Recommendation No. 9 ...................................................................................................32
          Recommendation No. 10 .................................................................................................33




USDA/OIG-A/27010-20-SF                                                                                                        Page iv
CHAPTER II – THREE CENTERS MAY NEED TO BE TERMINATED FROM THE
PROGRAM FOR REPEATEDLY CLAIMING SUBSTANTIALLY MORE MEALS THAN
THEY WERE ENTITLED TO.....................................................................................................34

          FINDING NO. 5.................................................................................................................34
          Recommendation No. 11 .................................................................................................43
          Recommendation No. 12 .................................................................................................43
          Recommendation No. 13 .................................................................................................44

EXHIBITS

A – SUMMARY OF MONETARY RESULTS ................................................................................45
B – LOCATIONS VISITED ...........................................................................................................46
C – CENTERS SERVING MEALS THAT DID NOT MEET NUTRITIONAL STANDARDS..........47
D – SUMMARY OF DISCREPANCIES NOTED ..........................................................................48
E – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT ...................................................50




USDA/OIG-A/27010-20-SF                                                                                                     Page v
                                        INTRODUCTION


                                          The Child and Adult Care Food Program
            BACKGROUND                    (program) is designed to ensure that
                                          children or adults in nonresidential day care
                                          facilities receive nutritious meals.      The
                program initially began as the Special Food Service Program for
                Children, established in 1968 by Public Law 90-302 and subsequently
                extended to 1975, when Public Law 94-105 amended the National
                School Lunch Act to create the Child Care Food Program. Program
                funding nationwide for fiscal year (FY) 1999 was $1.6 billion, and for
                FY 2000, funding is approximately $1.8 billion.

                     The program is administered at the Federal level by the FNS and in
                     most States by a State agency. In California, the administering State
                     agency is the California Department of Education (CDE). Facilities
                     eligible to participate are categorized either as day care homes or
                     child care centers (centers). Program regulations impose significantly
                     different eligibility and operating requirements for these two types of
                     institutions. Homes can only participate in the program through the
                     auspices of a sponsor, whereas centers may participate either
                     through a sponsor or by contracting directly with the State agency.

                     Centers participating in the program are responsible for serving well-
                     balanced, nutritious meals to children in a safe and healthy
                     environment and maintaining records supporting their reimbursement
                     claims. To be claimed for reimbursement, meals must meet certain
                     nutritional standards as defined in Federal regulations. Based on the
                     child’s household income and number of people living in the home,
                     centers determine the eligibility of each enrolled child for free,
                     reduced-price, or paid meals.1          Centers receive the most
                     reimbursement for a free meal and the least reimbursement for a paid
                     meal.




1 Children from households with the highest income or who choose not to complete a center Eligibility
Application are eligible for paid meals. Children from households with the lowest income are eligible for free
meals.

USDA/OIG-A/27010-20-SF                                                                              Page 1
             Centers submit reimbursement claims to CDE on a monthly basis. The
             information submitted includes both the total number of meals being
             claimed by type (i.e., breakfast, lunch, supper, or snack) and eligibility
             information to determine the per-meal reimbursement rate (free, reduced-
             price, or paid). See Finding No. 1 for further details of the claiming
             process. Centers are responsible for maintaining accurate, detailed
             records supporting their claims and must operate their food service on a
             nonprofit basis, primarily for the benefit of the enrolled children. In
             California, centers that participate in the program must be licensed and
             must comply with all licensing policies.

             CDE is required to provide program oversight primarily to ensure that
             centers participating in the program are claiming reimbursement only
             for nutritious meals served to eligible children in a safe and healthy
             environment. To this end, CDE is required to visit each center at least
             once every 4 years and to report on whether the center has complied
             with program regulations. CDE also provides training for employees
             at participating centers and recently issued a manual providing
             additional guidance.

             During FY 1998, CDE contracted directly with 652 organizations to
             administer the program at 3,850 child care centers that they owned
             and operated. Participating organizations were classified as follows:

                 TYPE OF ORGANIZATION           NUMBER         PERCENT-      NUMBER
                                                OF ORGS.        AGE OF       OF SITES
                                                                ORGS.
              Nonprofit Organizations                    417          64%        2,057
              School Districts                           158          24%        1,497
              Military Organizations                      30           5%           67
              Institutions of Higher Education            19           3%           57
              Indian Tribal Councils                      15           2%           30
              Governmental Agencies                       12           2%          140
              Hospital                                     1           0%            2
              TOTAL                                      652        100%          3850
             Figure 1: Organizations Participating in the Program, by Type

             CDE paid meal reimbursements totaling approximately $62 million to
             the 652 organizations with which it contracted directly during FY 1998.
              The 417 nonprofit organizations received approximately $33 million,
             more than half (53 percent) of the total paid by CDE. Of the 417
             nonprofit organizations, 287 organizations operated three or fewer
             child care sites and received $7.8 million, 24 percent of the total paid
             to nonprofit organizations and 13 percent of the total paid to all
             organizations.




USDA/OIG-A/27010-20-SF                                                          Page 2
                    The scope of this audit was limited to program operations at nonprofit
                    organizations that operated three or fewer sites.2 These smaller
                    nonprofit organizations constituted the most typical type of center
                    participating in the program in California.          Overall, nonprofit
                    organizations in California that operated three or fewer sites
                    represented 69 percent of all participating nonprofit organizations.

                    None of these smaller centers expended more than $200,000 during
                    FY 1998.     As a result, none were subject to Federal audit
                    requirements applicable to centers that expend more than $300,000
                    per year.

                    Regulations governing the program are located in 7 Code of Federal
                    Regulations (CFR), Section 226. Program requirements are also
                    found in the Child Care Centers Handbook prepared by FNS.
                    Financial management requirements are outlined in FNS Instruction
                    796-2 (Revision 2, dated June 28, 1994).

                                         Our audit objectives were to determine (1)
             OBJECTIVES                  the effectiveness of the State agency’s
                                         oversight and administration of the program
                                         at centers, and (2) whether these centers
                were serving nutritious meals to children in a safe and healthy
                environment, submitting accurate claims and maintaining adequate
                documentation, using and accounting for program funds as required,
                and, generally, complying with program regulations.

                                          The scope of this audit included a review of
                 SCOPE                    program operations at judgmentally selected
                                          nonprofit child care centers in California that
                                          participated in the program during FY 1998
                  and operated three or fewer sites. We focused on these small
                  centers because our previous audits of the program found that small,
                  private, nonprofit organizations participating in the program were
                  most apt to lack the controls needed to comply with program
                  requirements. In FY 1998, there were 287 such centers participating
                  in the program statewide. We visited 15 centers located in three
                  geographically dispersed counties (5 in Los Angeles County, 5 in
                  Alameda County, and 5 in

2
 As shown on State agency records. The number of sites is equal to the number of licenses held by
the center. A separate license is required for different age groups. Three licenses would be required to
care for children of all ages. A center may hold up to three licenses for one physical location.
Therefore, the number of locations operated by an organization may be considerably fewer than its
number of sites.

USDA/OIG-A/27010-20-SF                                                                         Page 3
             Sacramento County). (See exhibit B for the locations of the centers
             visited). These centers received $483,240 (or 6 percent) of the $7.8
             million paid to nonprofit organizations.

             The 15 centers were judgmentally selected within the 3 counties
             based on whether the centers appeared to be claiming at their
             licensed capacity, whether the most recent administrative review
             performed by the State agency indicated negative findings, and
             whether the centers were in close proximity of each other (for
             convenience of review).

             We made unannounced visits to all 15 selected centers. At each
             center, we reviewed FY 1999 operations. Fieldwork was performed
             between December 1999 and April 2000. We visited each center
             once and most of the centers twice. We observed a total of 44 meal
             services. Prior to beginning fieldwork, during October and November
             1999, we reviewed CDE’s program and review files for each of these
             centers.

             We conducted our review in accordance with generally accepted
             government auditing standards.

                                      To accomplish our objectives, we performed
        METHODOLOGY                   the following procedures:


                •   We interviewed CDE officials in Sacramento, California, to
                    gain an understanding of the program and background
                    information about the centers. We reviewed program and
                    review files and obtained records regarding meal claim
                    reimbursement and prior State agency reviews.

                •   We visited 15 judgmentally selected centers and interviewed
                    the staff to obtain an understanding of their operating
                    procedures. We reviewed and obtained copies of records,
                    including attendance logs, meal counts, eligibility applications,
                    and licenses. We counted the children in attendance and
                    observed the preparation and service of meals, as well as
                    conditions in general.




USDA/OIG-A/27010-20-SF                                                       Page 4
                •   We analyzed the data obtained from CDE and the centers. We
                    conducted follow-up visits at 12 of the 15 centers we initially
                    visited and compared the centers’ claims to our observations.




USDA/OIG-A/27010-20-SF                                                     Page 5
              FINDINGS AND RECOMMENDATIONS



              THE STATE AGENCY NEEDS TO ENSURE THAT
 CHAPTER      CENTER PERSONNEL RECEIVE ADEQUATE
    I         GUIDANCE AND TRAINING IN PROGRAM
              REQUIREMENTS

             CDE needs to improve its oversight procedures to better prevent
             recurrences of the types of deficiencies we found at the centers we
             visited. We reviewed operations at 15 child care centers that
             operated 3 or fewer sites in 3 California counties. We found that all 15
             of the centers made errors in the process of determining or reporting
             the eligibility of their enrolled children, in some cases resulting in
             incorrect program payments. Nine of the centers did not maintain
             required meal production records. Five centers did not consistently
             serve meals meeting nutritional requirements to children in their care,
             and seven centers did not take sufficient care to minimize the risk of
             food contamination. On our visits to these seven centers, we
             observed that three of the centers did not have sufficient staff to
             supervise children in compliance with State licensing policies.

             In many instances, the deficiencies we found had been in evidence
             during CDE’s most recent reviews of the same centers. Thirteen of
             the fifteen centers we visited continued to have deficiencies of the
             type identified during those State agency reviews, most of which were
             over 2 years old. We concluded that CDE needs to institute
             mandatory training for key personnel in all centers, with special
             emphasis on recordkeeping procedures. The table on the following
             page lists the 13 centers with recurring deficiencies, the dates of the
             State reviews, the areas in which the State found deficiencies, and
             whether or not we found these same types of deficiencies.




USDA/OIG-A/27010-20-SF                                                       Page 6
                      (X = Noncompliance Not Corrected, O = Noncompliance Corrected)
                                                                                       Menu
                                                                                      Produc-
                                                                Meal                    tion  Com - Excessiv
                             Date of State Eligibil-   Nutri-   Count Menu   Monitor- Record modi e Meals
           Centers             Review         ity      tion       s    s       ing        s   -ties Claimed
  Cal State Sacramento         Jan 7, 1999     X         X                      X         X
  Wonderland                  Nov 15, 1999     X         O
  Wee Li’l People             Jan 10, 1997     X                 X
  Shelton’s                   Nov 13, 1997     X         X
  Broderick Christian Ctr.   Sept 29, 1998     X                       O        X
  Grace Day Home              Dec 14, 1999     X         O       O              O       X      O
  Oak Park                    Aug 10, 1999     X         O       X              X       O
  Ebony Learning Tree         Dec 11, 1998     X
  D&L Carousel                July 16, 1997    X                                                       X
  Tomi’s Preschool            July 21, 1997    X         O
  Community Dev. Ctr.        March 3, 1994     X
  Faithful Central            May 13, 1997     X         X       X              O
  Lossieland Preschool       Sept 24, 1998     X                       O        O       O
 Figure 2: Types of Deficiencies noted during State reviews that were still in evidence at the
 time of the OIG Audit.

                       As the table shows, we found the same types of deficiencies during
                       our audit that the State had found in its reviews. We concluded that
                       CDE is not adequately gaining compliance with the program and
                       needs to increase its guidance and technical assistance to the
                       centers. Current onsite training is inadequate; CDE needs to require
                       training for key personnel to ensure that appropriate staff at each
                       center fully understands the program rules described in the program
                       manual.

                       See Exhibit D for a summary of the deficiencies we noted at each of
                       the centers.

                                       All 15 centers we visited submitted
       FINDING NO. 1                   inaccurate or insufficiently supported
                                       reimbursement claims during fiscal year
   CENTERS SUBMITTED                   1999 (October 1998 to September 1999).
                                       We concluded that some center employees
     INACCURATE OR                     did not know how to prepare the
      INADEQUATELY                     documentation needed to support their
   SUPPORTED CLAIMS                    claims and had not been adequately trained.
                                       However, in some cases, managers may
            have willfully decided not to comply with requirements. For further
            discussion related to willful instances of noncompliance, see Chapter
            II. We concluded that in those cases in which centers are unaware of
            program requirements, CDE’s oversight practices need to be
            improved to better prevent these types of errors from occurring.


USDA/OIG-A/27010-20-SF                                                                              Page 7
                    Centers submit monthly claims to CDE, reporting the number of meals
                    claimed during the month. CDE reimburses the centers based on the
                    information on the claim. The amount paid is dependent on the
                    number of children in each of three categories: free, reduced-price,
                    and paid.3 Free and reduced-price meals are reimbursed at a higher
                    rate than paid meals, with free meals receiving the highest
                    reimbursement. The category is determined based on each child’s
                    household circumstances (income, household size, etc.).

                    Federal regulations require that the centers report information in
                    accordance with the financial management system established by the
                    State agency, and in sufficient detail to justify the amount claimed.
                    Centers must certify that their claims are correct and that records are
                    available to support them.4

                    CDE issued a “Sponsors of Child Care Centers Administrative
                    Manual” in October 1998 that provides guidance to center operators,
                    including instructions about what is needed to support claims.
                    Centers are required to maintain records documenting attendance,
                    enrollment, eligibility, and the number, type, and description of meals
                    prepared and served (meal counts, menus, and menu production
                    records).5

                    Regulations also require the State agency to provide sufficient
                    consultative, technical and managerial personnel to administer the
                    program, and provide sufficient training and technical assistance to
                    institutions.6 We found, however, that CDE only offers formal training
                    for center employees on a voluntary basis. CDE does not require that
                    the center employees attend any formal CDE training. Although the
                    manual mentioned above is helpful, not all centers appear to have
                    read or understood it, and few appear to have adequately applied the
                    recordkeeping requirements described in it.

                    We found recordkeeping deficiencies at all of the 15 centers we
                    visited. Specifically, we found that:




3 CDE Sponsors of Child Care Centers Administrative Manual, Section 512, dated October 1998.
4 7 CFR, Chapter II, Subpart D, Section 226.10, Paragraph C, dated January 1, 1999.
5 CDE Sponsors of Child Care Centers Administrative Manual, Section 320, dated October 1998.
6 7 CFR, Chapter II, Subpart D, Section 226.6, Paragraph C, dated January 1, 1999.


USDA/OIG-A/27010-20-SF                                                                         Page 8
                           •   All of the fifteen centers made errors in the process of
                               determining or reporting the eligibility of their enrolled children.

                           •   Seven centers had inaccurately computed or transferred meal
                               counts to the claim submitted to the State agency.

                           •   Nine centers had not actually recorded meals at the point of
                               service. Five of these nine centers claimed reimbursement
                               based on attendance records or the number of children
                               present, rather than on the number of meals served.

                           •   Four centers had claimed reimbursement for ineligible meals.

                       Although CDE found these same types of problems at 13 of the 15
                       centers, its technical assistance to the centers was insufficient to gain
                       their compliance.

                       CENTERS SUBMITTED INACCURATE ELIGIBILITY DATA TO
                       STATE AGENCY, RESULTING IN INCORRECT PAYMENTS

                       We found that each of the 15 centers reviewed had made errors in the
                       process of determining the eligibility of their enrolled children or
                       reporting this information to CDE.

                       Centers claiming reimbursement for free and reduced-price meals
                       must obtain an eligibility application containing household information
                       for each child, such as the household size and income. The center
                       must certify that the application has been properly completed, signed,
                       and dated. Based on the information on the application, the center
                       determines each child’s eligibility for free, reduced-price, or paid
                       meals. The application is valid for no more than 12 months, and must
                       be resubmitted each year.7

                       Claiming percentages (the percentage of a center’s total enrollment in
                       each of the three eligibility categories) are established by CDE based
                       on the number of children in each eligibility category reported by a
                       center on its claim form. These percentages are used in determining




7   CDE Sponsors of Child Care Centers Administrative Manual, Section 610, dated October 1998.


USDA/OIG-A/27010-20-SF                                                                           Page 9
             the amount of payment due to a center. Centers are allowed to use
             the same claiming percentages for up to a year (called the fixed
             percentage claiming method), allowing the center to avoid having to
             identify each month, for each meal claimed, the eligibility category of
             the child it was served to. All of the centers we visited elected to use
             this method. In California, centers electing to use this method report
             the numbers of children in each category on the October claim each
             year.     Centers are required to maintain a roster that includes
             information on each enrolled child’s eligibility status to support the
             October claim.

             The problems we noted included the following:

                •   Some centers listed children on the roster who had not
                    attended during October when the roster was compiled. These
                    children may have attended either before or after October.
                    Including these children in the October claim caused CDE to
                    establish erroneous claiming percentages, resulting in
                    incorrect payments to the centers.

                •   Some centers incorrectly determined the eligibility category for
                    some of their enrolled children. These errors also resulted in
                    erroneous claiming percentages and, therefore, incorrect
                    payments.

                •   Some centers did not have eligibility applications on file for
                    some of the children they included in their counts of children
                    eligible for free or reduced price meals. Children without
                    eligibility applications must be considered by centers to be
                    eligible only for paid meals.

                •   Some centers did not have valid eligibility applications on file
                    for all of the children they included in their counts.      Some
                    applications had not been properly completed by the parents
                    (centers are required to certify that the applications are
                    complete and accurate). In other cases, applications had not
                    been certified by the center or the eligibility determination had
                    not been recorded.




USDA/OIG-A/27010-20-SF                                                     Page 10
                       For example,

                           •   At Wee Li’l People , there were 52 children listed on the
                               center’s October 1998 roster; however, only 33 children (63
                               percent) had attended classes during that month. Also, in
                               some cases, the monthly earnings section of the eligibility
                               application had been completed by the center rather than by
                               the parent or guardian.
                           •   The Day Care Center of Oak Park United Methodist
                               Church reported on its October 1999 claim that 50 children
                               (30 free, 7 reduced-price, and 13 paid) were enrolled, but the
                               center’s records did not support this number. However, the
                               center did not have a roster identifying the eligibility category of
                               each enrolled child participating in the program. Furthermore,
                               the center’s October 1999 attendance log recorded only 48
                               children attending during the month, and did not show their
                               eligibility category. Of the 48 children listed, only 41 had
                               eligibility applications on file. A center official recomputed the
                               eligibility categories as follows: 26 free, 7 reduced, and 15
                               paid. Consequently, the center could not reconcile its numbers
                               with those reported to CDE on its October 1999 claim form.


                           •   At Associated Students – California State University,
                               Sacramento (AS-CSUS) Children’s Center, we reviewed a
                               sample of 67 names out of a total of 271 listed on the October
                               1999 roster and found that there were no applications on file
                               for 3 names listed on the roster, 9 applications were not fully
                               completed, and 5 applications had not been certified by the
                               center.

                       CENTERS DID NOT ACCURATELY COMPUTE AND TRANSFER
                       MEAL COUNTS TO REIMBURSEMENT CLAIMS

                       Meals served to enrolled children must be recorded at the point of
                       service.8 Separate counts must be kept for each day and meal. Each
                       month, the center totals the daily counts and files a claim for the
                       month, reporting the number of meals claimed by type (breakfast,
                       lunch, supper, or snack). We found seven centers did




8   CDE Sponsors of Child Care Centers Administrative Manual, Section 323, dated October 1998.

USDA/OIG-A/27010-20-SF                                                                           Page 11
             not accurately report the number of meals served on their claims.
             Some centers did not accurately calculate the total number of meals
             served and others transferred information incorrectly from meal count
             records to the reimbursement claim.

             For example,

                •   Wee Li’l People , on its March 1999 reimbursement claim,
                    reported serving 1,973 meals (604 breakfasts, 646 lunches,
                    and 723 snacks). We recomputed the total number of meals
                    served during that month, using daily meal counts, and
                    determined that the center’s daily records supported their
                    serving only 1,905 meals (580 breakfasts, 627 lunches, and
                    698 snacks), an overclaim of 68 meals. We believe the
                    overclaim was unintentional, because the center had no
                    procedures in place to ensure that the total number of meals
                    claimed for reimbursement was accurately computed.

                •   Ebony Learning Tree Child Care Center made
                    mathematical errors in summarizing meal count information on
                    its February, April, May, and November 1999 meal count
                    sheets. As a result, the center underclaimed a total of 10
                    breakfasts, 112 lunches, and 66 supplements. In addition,
                    although the center was closed for Martin Luther King’s
                    Birthday on January 18, 1999, it claimed 21 breakfasts for this
                    day, resulting in an overclaim of 21 meals.

                •   Change Thru Xanthos prepared summary meal count
                    records to support their reimbursement claims. We reviewed
                    the claims submitted during FY 1999 and found that for five
                    months during that period, the total number of meals on the
                    summary meal count records did not equal the number of
                    meals recorded on the daily meal count records. In addition,
                    there were instances where the meals claimed were not
                    supported by daily meal count records. As a result, the center
                    overclaimed a total of 371 breakfasts, 633 lunches, and 240
                    snacks during FY 1999.

             CENTERS CLAIMED REIMBURSEMENT BASED ON ATTENDANCE
             AND DID NOT RECORD MEAL COUNTS WHEN MEALS WERE
             SERVED

             As discussed previously, centers are required to count and record the
             number of meals served at the time the meal is actually served



USDA/OIG-A/27010-20-SF                                                    Page 12
                       (point of service). The Sponsor’s Administrative Manual specifically
                       states that “Attendance records cannot be used as meal counts.”9
                       We identified nine centers that did not actually record meals at the
                       point of service. Five of those nine centers claimed reimbursement
                       based on attendance records, rather than by counting the actual
                       number of meals served.

                       The supervisor at Ephesian Children’s Center, told us that they
                       used “sign-in records”10 as meal counts. She said that when they
                       served meals, the meal was offered to all children. However, we
                       observed that not all children present actually participated in the meal
                       service. We compared the number of children signed-in to the
                       number of meals served on February 7 and 8, 2000, the days we
                       visited. As shown in the following table, neither the number of children
                       present nor the number of children participating in the meal service
                       always equaled the number of children signed-in.

                                                  NUMBER OF      NUMBER OF        NUMBER OF
                         DATE/TYPE OF MEAL         CHILDREN       CHILDREN         CHILDREN
                                SERVED             SIGNED-IN       PRESENT      PARTICIPATING
                        February 7, 2000:
                           Morning Snack              13              13               10
                           Lunch                      13              12               12
                        February 8, 2000:
                           Morning Snack              11              12                6
                           Lunch                      11              12               12
                        Total                         48              49               40
                       Figure 3: Comparison of the Number of Children Signed-in, Present, and
                       Served During 2 Days at the Ephesian’s Children Center

                       If, as this center stated they had done in the past, they had used the
                       attendance records as the basis for claiming reimbursement on these
                       two days, the claim would have overstated the number of meals
                       actually served by 20 percent (48 claimed versus 40 served).

                       At another center, the Day Care Center of Oak Park United
                       Methodist Church, an [employee] was responsible for recording the
                       number of meals served. The [employee] told us that the [employee]
                       prepares afternoon snacks based on the number of
                       children signed-in,




9 CDE Sponsors of Child Care Centers Administrative Manual, Section 321, dated October 1998.
10An adult who is responsible for the child “signs -the child in or out” indicating the time the child arrived at and
left the center.

USDA/OIG-A/27010-20-SF                                                                                   Page 13
                       and records this number as the number of snacks served, since the
                       [employee] leaves before the snack is actually served. On February
                       23, 2000, we observed that 12 kindergarten children were present
                       when the afternoon snack was served. The snack was served on a
                       tray, but only one child actually took the snack. The [employee] had
                       recorded that 12 snacks were served, but the [employee] corrected
                       the records after we explained what we had seen.

                       Eight other centers did not record meals served at the point of
                       service. An [employee] at Shelton’s Primary Education Center
                       said that the [employee] recorded the number of meals served, based
                       on the [employee’s] memory, once a week on Fridays and never
                       claimed more than the center’s license capacity. The director at the
                       Broderick Christian Center (operated under the United Christian
                       Center of Greater Sacramento) said that they used attendance
                       records to record the number of meals served. They did this because
                       they always seated all children present at a table before the meal was
                       served.

                       CENTERS CLAIMED REIMBURSEMENT FOR INELIGIBLE MEALS

                       Centers are allowed to claim reimbursement for meals served to
                       children only at sites approved by CDE.11 Also, meals served to non-
                       enrolled persons must be recorded, but cannot be claimed for
                       reimbursement.12

                       We found that one center, Wee Li’l People , had claimed
                       reimbursement for a meal purchased at a fast food restaurant during
                       a fieldtrip. Three other centers, D&L Carousel, Ebony Learning
                       Tree, and Shelton’s Primary Education Center, had claimed
                       reimbursement for meals served to ineligible school children. These
                       three centers failed to comply with several other program
                       requirements, as discussed in Chapter II.

                       STATE’S TECHNICAL ASSISTANCE DID NOT GAIN COMPLIANCE

                       For 13 of the 15 centers described above, the State agency had
                       documented similar concerns. During its most recent reviews, CDE
                       had found that the 13 centers had made inaccurate or unsupported
                       eligibility determinations, and that 4 of the 15 had



11   CDE Sponsors of Child Care Centers Administrative Manual, Section 240, dated October 1998.
12   CDE Sponsors of Child Care Centers Administrative Manual, Section 323, dated October 1998.


USDA/OIG-A/27010-20-SF                                                                            Page 14
             arrived at improper meal counts.            However, as our audit
             demonstrates, the deficient centers did not improve and were still
             making inaccurate eligibility determinations at the time of our visits. In
             the case of the Community Development Center, the type of
             deficiency CDE found on its last visit on March 3, 1994 was still
             occurring. We concluded that CDE needs to strengthen its provisions
             for gaining compliance through technical assistance, or terminate the
             centers, if permanent corrective action does not occur.

             Under current operations, CDE will notify the center of a deficiency
             during the review and may provide technical assistance (training) at
             the site. Also, as mentioned earlier, sites may refer to a copy of the
             program manual, which includes guidance on recordkeeping as well
             as other program requirements. However, because the types of
             problems found by CDE reviewers were still in evidence during
             our audit, we concluded that the manual was not being followed and
             that the training process could be improved.

             CDE also invites center employees to receive formal training but on a
             volunteer basis only. It has not made such training mandatory, and
             center employees generally do not attend. We learned that 10 of the
             15 program directors (D&L Carousel, Ebony Learning Tree,
             Tomi’s Preschool, Shelton’s Primary Education Center, Wee Li’l
             People Preschool, Lossieland Daycare, Day Care Center of Oak
             Park, Wonderland Preschool, Broderick Christian Center, and
             Grace Day Home, Inc.) had not attended CDE sponsored training
             since September 1998. They told us that they had not attended
             training because it was not required, and was too costly, time-
             consuming, and inconvenient. Two directors told us that the only
             training they received was when CDE reviewed their operations (once
             every 3 years).

             We concluded that formal training provided or approved by CDE
             should be mandatory for key personnel at each center. Personnel
             responsible for keeping records at each center should especially
             attend annual training at which recordkeeping requirements are
             adequately covered.




USDA/OIG-A/27010-20-SF                                                       Page 15
 RECOMMENDATION NO. 1

             Require CDE to revise its training procedures to include a
             requirement that key employees from each center annually attend
             CDE-provided or approved training and that recordkeeping
             requirements be adequately covered.


             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.



 RECOMMENDATION NO. 2

             Require CDE to provide technical assistance to the 15 centers
             reviewed, through the training process discussed in Recommendation
             No. 1 or other means, regarding the deficiencies noted in this audit
             report. Perform followup visits to the 15 centers to determine if the
             deficiencies noted have been corrected, and if not, take appropriate
             steps to attain compliance with program requirements or terminate
             the centers from the program.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27010-20-SF                                                   Page 16
                                    Five of the 15 centers we visited did not
      FINDING NO. 2                 consistently serve meals that met program
                                    nutritional requirements. See Exhibit C for
 CENTERS SERVED MEALS               details of the deficiencies. Some of the
                                    meals we observed did not contain all
   THAT DID NOT MEET                required meal components or did not
 NUTRITIONAL STANDARDS              contain a sufficient quantity of each
                                    component. At one center, the director was
           unaware that lunch required two kinds of vegetables and fruits, while
           at another, an [employee] did not want to serve the required amount of
           milk because she believed that the children would not drink all of it.
           Consequently, children in care did not always receive meals
           containing minimum nutritional levels. We concluded that CDE’s
           training requirements need to be revised to improve centers’
           compliance with these requirements.

               Centers are reimbursed for meals served to eligible enrolled children.
                To be eligible for reimbursement, meals must meet nutritional
               standards that specify the types of food (meal component) and the
               minimum quantity of each component that must be served. These
               requirements are established by Federal regulation and vary
               depending on meal type, as follows:

                   •   Breakfast must include milk, vegetable(s) or fruit(s) or full-
                       strength vegetable or fruit juice, and bread or bread alternates.

                   •   Lunch and supper must include milk, two kinds of vegetables
                       or fruits, bread or bread alternates, and meat or meat
                       alternates.

                   •   A snack must include two of the following: milk, vegetable(s)
                       or fruit(s) or full-strength vegetable or fruit juice, bread or bread
                       alternates, and meat or meat alternates.




USDA/OIG-A/27010-20-SF                                                            Page 17
             The regulations also specify how much of each food component must
             be served at each meal. These amounts vary by age group. For
             instance, if a center served milk, fruit, and biscuits as breakfast, the
             following amounts would be required, according to age groups:

                 COMPONENT             AGE 1-2            AGE 3-5        AGE 6-12
              Milk                       ½ cup              ¾ cup         1 cup
              Fruit                      ¼ cup              ½ cup          ½ cup
              Biscuit (Bread)          ½ serving          ½ serving      1 serving
             Figure 4: Program Requirements for Breakfast

             Instead of serving each child individual portions of each meal
             component, centers may elect to use a “family-style” meal service.
             During this type of meal service, food is served on common platters,
             and children are allowed to serve themselves.          Children are
             encouraged to take a full serving of each required component. The
             center is required to place enough food at each table so that each
             child can receive the minimum required amount of each meal
             component.

             We observed 44 meal services at 15 centers. Nine of these meal
             services (20 percent) did not meet all nutritional standards. All of the
             noncomplying meals were served at 5 of the 15 centers. The
             noncomplying meals represented 64 percent of the 14 meals we
             observed at these centers. In some cases, there was more than one
             deficiency noted with a meal.

             AS-CSUS Children’s Center, Sacramento

             At the AS-CSUS Children’s Center, we observed supper on February
             23, 2000, and breakfast and lunch on February 24, 2000.

             Quantities served at two of the three meals were inadequate. This
             center used a family-style meal service.

             The supper served to toddlers (ages 1 through 2), lacked the required
             vegetable component.




USDA/OIG-A/27010-20-SF                                                      Page 18
             At lunch, the center included less than the required amount of peanut
             butter on its peanut butter and jelly sandwiches served to preschool
             children. It should have served 3 tablespoons for each preschool
             child. (Note: This requirement could also be satisfied by serving
             specified quantities of meat or other meat alternates.)

             When CDE reviewed this center on January 7, 1999, the State
             reviewer concluded, based on an analysis of specific menu
             production records, that incomplete meals and/or inappropriate foods
             were served.

             Faithful Central Educational Center, Los Angeles

             At the Faithful Central Educational Center, we observed lunch on
             December 6, 1999, and breakfast on December 7, 1999. The
             breakfast lacked the required fruit or vegetable component.

             When CDE reviewed the center on May 13, 1997, the State reviewer
             found instances where the center served meals that did not contain an
             adequate quantity of milk to meet nutritional standards.

             Shelton’s Primary Education Center, Berkeley

             At Shelton’s Primary Education Center, we observed breakfast and
             lunch on February 1 and 2, 2000. Three of the four meal services
             either lacked a required component or the amount served was
             inadequate. This center served each child individually.

             The center served each child a glass containing ¼ cup of milk at
             breakfast and lunch on February 1, 2000. Children aged 1 to 2 years
             should be served ½ cup of milk, those aged 3 to 5 years should be
             served ¾ cup, and those aged 6 through 12 years should be served 1
             cup at each meal. At the breakfast, there were 18 preschoolers
             present, and at the lunch there were 44 preschoolers, 15
             kindergarteners, and 14 first graders and older. An [employee] stated
             that pouring more than ¼ cup of milk could be wasteful because the
             children might not drink all of it.




USDA/OIG-A/27010-20-SF                                                   Page 19
             In addition, the breakfast lacked a fruit or vegetable, and the lunch
             included an inadequate quantity of meat (in the spaghetti sauce). An
             [employee] told us that the [employee] should have broken up the
             meat better in the sauce, but that the [employee] did not always serve
             meat to the smaller children because they did not like it. Regulations
             require that 1 ounce of meat or meal alternate be served to children
             aged 1 to 2 years, 1½ ounces be served to those aged 3 to 5 years,
             and 2 ounces be served to those aged 6 to 12 years.

             On February 2, the lunch did not meet the requirement to have two
             kinds of vegetables and/or fruits. For ages 1 through 2 years old, 3
             through 5 years, and 6 through 12 years, regulations require that ¼
             cup, ½ cup, and ¾ cup, respectively, of fruit and/or vegetable, be served.

             When CDE reviewed the center on November 13, 1997, the State
             reviewer noted that meals did not contain all required food
             components, and immediately provided training to the [employee].

             Ebony Learning Tree Child Care Center, Los Angeles

             At Ebony Learning Tree Child Care Center, we observed lunch on
             December 15, 1999, and breakfast and snack on February 16, 2000.
              We concluded that two of the three meals either lacked a required
             food component or the quantity served was inadequate.

             On December 15, 1999, the teachers poured approximately ¼ to 1/3
             cup of milk into each child’s glass during the lunch service. As
             previously stated, regulations stipulate that children should be served
             between ½ and 1 cup of milk, depending on age. Also, during the
             lunch service, the center served one fruit rather than two kinds of
             vegetables or fruits as required. The director stated that she did not
             realize that two vegetables or fruits were required.

             Breakfast on February 16, 2000, did not include a fruit or vegetable. A
             minimum of ¼ cup to ½ cup of vegetables or fruit is required,
             depending on age.




USDA/OIG-A/27010-20-SF                                                       Page 20
             Broderick Christian Center, Sacramento

             At the Broderick Christian Center, we observed breakfast and lunch
             on February 25, 2000. At the breakfast, the center did not serve an
             adequate quantity of milk. Three cups of milk were poured over
             oatmeal and served to 15 children, only 1/5 cup per child. This center
             used a family-style meal service.

             As mentioned, CDE had found these same nutritional deficiencies
             during its own reviews and in most cases provided technical
             assistance onsite. However, the technical assistance provided at the
             time was not effective. We concluded that more formal training on
             nutrition and program rules was needed, and we are recommending
             that this training be included in the training requirements discussed in
             Recommendation No. 1.


 RECOMMENDATION NO. 3

             Require CDE, in implementing Recommendation No. 1, to include in
             its training sessions training on nutritional requirements.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27010-20-SF                                                     Page 21
                                    Seven of the 15 child care centers that we
      FINDING NO. 3                 visited did not exercise sufficient care in
                                    their handling of food to minimize the risk of
CENTERS DID NOT MAINTAIN contamination. We concluded that this
                                    occurred, in part, because neither the State
 ENVIRONMENTS FREE OF               agency nor DSS, the licensing agency,
HEALTH AND SAFETY RISKS provided sufficient detailed guidance on
                                    food handling. Furthermore, during our visits
           we found that three of the seven centers did not maintain required
           staffing levels. Consequently, the health and safety of children in care
           may have been at risk.

                DSS licenses child care centers and issues policies governing
                operations, including food service. These policies stipulate that all
                food must be selected, stored, prepared, and served in a safe and
                healthful manner. In addition, licensing policies also require centers to
                maintain a specified ratio of teachers to children, based on age.

                During our visits to 15 child care centers, we observed instances
                where center staffs did not handle food safely, did not properly clean
                tables before serving the meal, and did not provide enough teachers
                for the number and ages of children present.

                FOOD HANDLING

                We observed the following conditions at some of the centers we
                visited:

                   •   Grace Day Care Home: On February 29, 2000, we observed
                       a semi-frozen turkey thawing in a pan outside of the
                       refrigerator. An [employee] stated that the [employee] usually
                       thawed meat in the refrigerator, and we observed some other
                       meat being thawed in this manner.

                   •   Shelton’s Primary Education Center: On February 1, 2000,
                       an [employee] left a frozen turkey sausage on the counter to
                       defrost overnight. The next morning when we returned to the
                       site, we observed the turkey sausage still on the counter. We
                       then observed the [employee] place the sausage into the
                       refrigerator.




USDA/OIG-A/27010-20-SF                                                         Page 22
                    The [employee] also acknowledged that sometimes the
                    [employee] defrosted meat by unplugging the freezer in which it
                    was stored, waiting for it to thaw, then transferring it to the
                    refrigerator.

                •   Ephesians Child Care Center: On February 7, 2000, milk
                    remained unrefrigerated for 45 minutes.

                •   Ebony Learning Tree Child Care Center: During the lunch
                    meal service on December 15, 1999, milk served to children
                    sitting outside was not kept on ice during the meal service.

                •   Broderick Christian Center: On February 25, 2000, an
                    [employee] did not wear gloves while mixing meatloaf with her
                    hands.

                •   Wonderland Preschool: During the afternoon snack on
                    February 28, 2000, the children served themselves snack mix
                    by reaching into a large container with their bare hands.

             Licensing policies issued by DSS state that “all food shall be
             protected against contamination.” In addition,

                All foods or beverages capable of supporting the rapid and
                progressive growth of microorganisms that can cause food
                infections or food intoxications shall be stored in covered
                containers at 45 degrees F (7.2 degrees C) or less.

                All persons engaged in food preparation and service shall
                observe personal hygiene and food service sanitation
                practices that protect food from contamination.

             However, the licensing requirements do not provide specific
             instructions concerning how to safely defrost food and how to handle
             and serve it so as to decrease the risk of food-borne illnesses.

             CLEANLINESS OF KITCHEN AREA

             Licensing policies require that “all kitchen, food preparation and
             storage areas shall be kept clean…” We observed the following
             conditions:




USDA/OIG-A/27010-20-SF                                                    Page 23
                •   Ephesians Child Care Center: On February 7 and 8, 2000,
                    employees did not clean the tables before the snack was
                    served to preschool children.

                •   Ebony Learning Tree Child Care Center: On December
                    15, 1999, employees did not use disinfectant to clean the
                    tables before the meal was served. They only wiped the tables
                    using a damp cloth or napkin.

                •   Shelton’s Primary Education Center: On February 1, 2000,
                    we observed that the hood above the stove was very dirty, with
                    dust-covered grease dangling above a pot of spaghetti being
                    prepared. An [employee] explained that another [employee]
                    was new, and did not realize that the hood had to be cleaned.
                    The next morning, the hood had been cleaned.

             STAFF/CHILD RATIO

             Licensing policies require 1 teacher for every 12 preschool children.
             At a school-aged center, there must be at least 1 teacher for every 14
             children. During our visits, we observed the following deficiencies:

                •   Shelton’s Primary Education Center: On February 1, 2000,
                    44 preschool children were served lunch; however, only 3
                    adults were present. Regulations require four adults. On
                    February 2, 2000, 20 school-aged children were left
                    unattended during the lunch service because the teacher went
                    to have her lunch. There should have been two teachers
                    present.

                •   Ebony Learning Tree Child Care Center: During separate
                    lunch services on December 15, 1999, there was 1 adult
                    supervising 14 preschool children at the first table, and only 1
                    adult supervising 15 preschool children at the second table.

                •   Wee Li’l People : On February 3, 2000, after the director took
                    the school-aged children to school, only 1 teacher was present
                    to supervise 23 kindergarteners. Two were required. On April
                    14, 2000, there were 2 adults supervising 32 to 33 children.
                    Three adults were required.




USDA/OIG-A/27010-20-SF                                                     Page 24
             A CDE representative told us that DSS (the licensing authority) does
             not license centers if they do not meet the health and safety standards
             outlined in the licensing policies. She explained that CDE uses these
             policies to determine, during their administrative reviews, whether
             centers are meeting licensing requirements. If the State reviewer
             observes unhealthy or unsafe conditions, the reviewer contacts a DSS
             representative. However, we noted that the administrative review
             guide for conducting reviews does not specify the need to contact
             DSS if health and safety or licensing concerns are noted.

             Overall, we concluded that the lack of sufficient, detailed guidance on
             food handling provided by CDE and DSS, as well as the lack of
             sufficient staff to supervise and monitor children, were factors that
             contributed to the health and safety deficiencies we observed. We
             believe that additional health and safety instructions should be
             developed to ensure the appropriate staff-child ratios are maintained
             and to assist centers in protecting children from the risk of food-borne
             illnesses.


 RECOMMENDATION NO. 4

             Require CDE to revise its review procedures to require CDE staff
             performing reviews to notify DSS when egregious health, safety, or
             sanitation violations are noted during an administrative review.

             Agency Response

             In its written response to the draft report, FNS suggested changes to
             the wording of the recommendation.

             OIG Position

             We revised the wording of the recommendation, and accept FNS’
             management decision on it.




USDA/OIG-A/27010-20-SF                                                     Page 25
     RECOMMENDATION NO. 5

                       Require CDE, in implementing Recommendation No. 1, to include
                       coverage of safe food handling practices in its training sessions.

                       Agency Response

                       In its written response to the draft report, FNS agreed with the
                       recommendation.

                       OIG Position

                       We accept FNS’ management decision on this recommendation.

                                    All 15 centers we visited did not comply with
      FINDING NO. 4                 one or more administrative requirements
                                    concerning recordkeeping, monitoring, and
CENTERS NEED GUIDANCE training. Specifically, they did not maintain
                                    accurate daily menu production records,
  ON RECORDKEEPING,                 monitor food service operations, document
MONITORING, AND TRAINING monitoring activities, and document training
     REQUIREMENTS                   provided to their staff. Moreover, they did
                                    not maintain an efficient recordkeeping
           system to provide the assurance that they were operating their food
           service on a nonprofit basis and principally for the benefit of the
           enrolled participants.    We concluded that these instances of
           noncompliance occurred because CDE had not provided sufficient
           guidance or training. As a result, there is reduced assurance that
           these centers operate the program as intended and that funds are
           used only for allowable purposes.

                       Program requirements are established by regulations and State
                       agency policy. To ensure that the program renders the benefits it is
                       intended to provide, centers are required to offer staff training, at least
                       annually, and to monitor food service operations throughout the year.
                       Each center must document the dates and locations of training
                       sessions, topics discussed, and names of attendees. Centers must
                       also document their monitoring activities.13




13   FNS Child Care Centers Handbook, Chapter 8, p. 51-59, August 1995.

USDA/OIG-A/27010-20-SF                                                                  Page 26
                     Centers are also required to operate the food service on a nonprofit
                     basis. Costs charged to the program must have been incurred for
                     food service primarily to enrolled participants. Centers must maintain
                     documentation to support that they are operating a nonprofit food
                     service and should have, at a minimum, records showing receipt of
                     program payments and other income, and records of operating and
                     administrative costs.14

                     Additionally, CDE requires centers to keep daily menu production
                     records in addition to the daily meal counts, menus, and attendance
                     records.15 A menu production record is a written record of the quantity
                     of food prepared for each menu item served and the amount or
                     number of servings left over. These records help document
                     whether an adequate amount of food was prepared and served.16

                     Finally, centers are required to maintain records to support program
                     operations for at least 3 years. These records should be readily
                     available for review or audit by appropriate U.S. Department of
                     Agriculture representatives.17

                     CENTERS DID NOT SUBSTANTIATE THAT THE FOOD SERVICE
                     WAS OPERATED ON A NONPROFIT BASIS

                     Five of the 15 centers we visited could not substantiate that they had
                     operated their food service on a nonprofit basis principally for the
                     benefit of the enrolled participants.       These five centers (D&L
                     Carousel, Ebony Learning Tree, Tomi’s Preschool, Lossieland,
                     and Wee Li’l People ) either (a) did not have an adequate
                     recordkeeping system to efficiently document allowable costs
                     incurred or program funds received to support the nonprofit food
                     service operations, or (b) erroneously allocated nonprogram costs as
                     a food program expense.

                     Two of the centers, D&L Carousel and Ebony Learning Tree, were
                     collocated with private schools. The food service at each center
                     provided meals both for preschool children (enrolled in the program)
                     and for school-aged children enrolled in the school but not in the day
                     care center (not eligible for the program). These centers did not keep
                     records, which would allow them to separate out the costs of the


14 FNS 796-2, Revision 2, I.A. & VI.A, June 28, 1994.
15 CDE Sponsors of Child Care Centers Administrative Manual, Section 310, October 1998.
16 FNS Child Care Centers Handbook, Chapter 8, p. 51-59, August 1995.
17 FNS Child Care Centers Handbook, Chapter 8, p. 51-59, August 1995.




USDA/OIG-A/27010-20-SF                                                                    Page 27
                        meals served to participating children from the costs of the meals
                        served to nonparticipating children. Two other centers, Lossieland
                        and Wee Li’l People, also commingled purchases of program and
                        nonprogram goods and did not allocate any part of the expenditure as
                        a nonprogram cost.

                        According to FNS guidance, provided in the Child Care Center
                        Handbook, issued in August 1995:

                            An efficient record keeping system that supports all
                            payments received under the program must be maintained,
                            and all allowable costs in support of the center’s nonprofit
                            food service must be documented.

                        CDE officials told us that reviewers do not ordinarily examine the
                        center’s fiscal records when they visit a center. Consequently, CDE
                        has no assurance that centers are operating nonprofit food services
                        primarily for the benefit of the enrolled participants and are using
                        funds only as allowed.

                        CENTERS DID NOT MAINTAIN                       ACCURATE          DAILY         MENU
                        PRODUCTION RECORDS

                        Most centers (9 of the 15 we visited) did not maintain accurate daily
                        menu production records. These records, required by CDE, are
                        designed to provide documentation that centers had prepared food in
                        sufficient quantities to meet nutritional guidelines. Some centers
                        stated that they prepared the menu production records weekly or
                        monthly, after the fact, rather than daily, basing the figures on
                        attendance and memory rather than actual records of meals served.

                        CDE requires centers to complete menu production records daily.
                        These records must include the name of the center, date, type of meal
                        service (i.e., breakfast, lunch, supper, or supplement), number of
                        participants planned for by age group, number of program adults
                        planned for, meal components served, quantities of foods planned
                        and served, and leftovers, if they are to be used in another
                        reimbursable meal service.18




18   CDE Sponsors of Child Care Centers Administrative Manual, Sections 320, 327, 410, October 1998.


USDA/OIG-A/27010-20-SF                                                                           Page 28
             In total, nine of the centers we visited (Faithful Central Education
             Center, D&L Carousel, Ebony Learning Tree, Shelton’s Primary
             Education Center, Wee Li’l People , Ephesian Children’s Center,
             AS–CSUS Children’s Center, Broderick Christian Center, and
             Grace Day Care Home) did not maintain menu production records
             as required. During our visit to Shelton’s Primary Education
             Center in February 2000, we observed an [employee] preparing the
             menu production records for August 1999. At Faithful Central
             Education Center, we found that the center was not indicating, in all
             cases, the quantity of each meal item prepared (i.e., pounds of meat
             cooked). In many instances, the center was only recording the
             number of servings per meal item.

             CENTERS DID NOT DOCUMENT MONITORING ACTIVITIES AS
             REQUIRED

             About half the centers (7 of 15) had not documented their monitoring
             activities as required. Several directors told us that they monitored
             food operations frequently (daily or weekly) but did not document their
             observations.

             State guidelines require that centers monitor food program
             operations not less than 3 times each program year with no more than
             6 months elapsing between monitoring sessions. Two of these 3
             times, the monitor must observe a meal service.

             Four centers (Tomi’s Preschool, Shelton’s Primary Education
             Center, Wee Li’l People , and Day Care Center of Oak Park
             United Methodist Church) lacked documentation that they had
             monitored program activities for fiscal year 1999.        Broderick
             Christian Center   had documentation for just one monitoring session
             conducted in fiscal year 1999.

             During our initial visits to Ebony Learning Tree and D&L Carousel
             in December 1999, the directors at both centers claimed to monitor
             meal service on a weekly basis, but stated that they did not keep
             records of this activity. However, when we visited each center again
             in February 2000, both directors provided documentation indicating
             that they had monitored food service operations. Ebony Learning
             Tree provided documentation for one monitoring session conducted
             in September 1998, and D&L Carousel provided documentation for
             five sessions conducted from February 1998 through November
             1999. Based on the preceding, we questioned the validity of the
             records provided.

USDA/OIG-A/27010-20-SF                                                     Page 29
                       CENTERS MAY NOT HAVE PROVIDED ADEQUATE TRAINING

                       Most of the centers we visited stated they provided program training
                       for all employees that participated in program activities, but several
                       had not maintained the required records describing when the training
                       was provided, who was trained, and what training was provided.
                       Directors told us that they held informal staff meetings to train their
                       staff and to discuss program-related issues. The frequency of the
                       training varied, with some centers holding weekly sessions and others
                       limiting the sessions to one per year. Some directors held training
                       sessions to impart what they had learned from the CDE training
                       sessions they had attended, while others provided training only when
                       a new employee was hired. Some directors added that they did not
                       have sufficient staff to allow employees time to attend training.

                       We questioned whether center employees were receiving adequate
                       training. As noted in this report, one-third of the centers lacked
                       documentation to support the training provided, and the overall extent
                       of deficiencies we found at the centers was significant.

                       Regulations require centers to provide orientation and ongoing
                       training in child care for all caregivers. Additional training sessions
                       are to be provided not less than annually. 19

                       State policy also requires centers to conduct training sessions
                       annually. These guidelines require centers to record the date,
                       location, topic, and participants in attendance for each session held.
                       The agenda should be attached to the documentation and retained for
                       3 years beyond the year of training.20




19   7 CFR, Chapter II, Subpart D, Section 226.16 (d) (2) & (3), dated January 1, 1999.
20   CDE Sponsors of Child Care Centers Administrative Manual, Section 230, October 1998.


USDA/OIG-A/27010-20-SF                                                                      Page 30
             In light of the significant level of noncompliance with program
             requirements we found during our center visits, we questioned the
             adequacy of the training provided by the 10 directors to their staffs.
             We believe that CDE should require the directors or their key staff to
             attend CDE-provided or approved training to ensure that each center
             has available within its organization necessary program information.


 RECOMMENDATION NO. 6

             Instruct CDE to inform all centers of the requirement that they operate
             their food service on a nonprofit basis and of the records needed to
             support that they are in compliance with this requirement. In carrying
             out Recommendation No. 1, CDE should include training about these
             requirements in its annual training sessions.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.



 RECOMMENDATION NO. 7

             Require CDE to inform centers concerning the requirement that
             monitoring of the food program must be performed and documented.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.




USDA/OIG-A/27010-20-SF                                                     Page 31
             OIG Position

             We accept FNS’ management decision on this recommendation.


 RECOMMENDATION NO. 8

             Require CDE to revise its review process to include an evaluation of
             whether centers are operating their food service operations on a
             nonprofit basis.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.



 RECOMMENDATION NO. 9

             Require CDE, in implementing Recommendation No. 1, to cover the
             requirements relating to maintenance of meal production records in
             its training sessions.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27010-20-SF                                                  Page 32
 RECOMMENDATION NO. 10

             Require CDE to inform centers concerning the requirement that
             annual staff training be documented and retained for 3 years beyond
             the year of training.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27010-20-SF                                                 Page 33
                THREE CENTERS MAY NEED TO BE TERMINATED
 CHAPTER        FROM THE PROGRAM FOR REPEATEDLY
    II          CLAIMING SUBSTANTIALLY MORE MEALS THAN
                THEY WERE ENTITLED TO


                                        We found serious deficiencies at three of the
        FINDING NO. 5                   fifteen child care centers we visited (two in
                                        Los Angeles County and one in Alameda
                                        County) and these centers may need to be
             terminated from the program if the deficiencies are not corrected. We
             found that these three centers had problems in most of the areas we
             reviewed. Most conspicuously, the centers repeatedly claimed
             substantially more meals than they were entitled to claim. All three
             centers were collocated with private schools, operated by the same or
             a related entity, and served meals to both preschool and school-aged
             children. The centers apparently were claiming ineligible school-aged
             children in addition to eligible preschool children. We concluded that
             two of the three centers had done this knowingly. In addition, one
             center (Shelton’s Primary Education Center) was not eligible to
             claim the reimbursement it received prior to January 2000 because
             the food program was actually operated by another, ineligible entity.

               We believe that these centers require immediate attention from CDE.
                We are recommending that CDE perform a follow-up review, and
               based on the conditions we are reporting and the results of their
               review, determine if these centers are seriously deficient. If so
               determined, CDE should require the centers to timely correct the
               deficiencies or terminate them from the program.

               Although CDE visits each center once every 3 years, many of the
               deficiencies we found were not noted during CDE’s most recent
               visits. For example, risks of food contamination and nonsupport for
               food costs were not recognized by CDE reviewers as problem areas
               at all three centers. We concluded that this occurred partly because
               CDE announces its visits in advance, allowing the centers to prepare
               for the reviews. By contrast, our audit consisted of unannounced
               visits. Since centers had no opportunity to prepare for our visit, we
               believe that what we observed was more representative of the
               centers’ normal operations. The following




USDA/OIG-A/27010-20-SF                                                      Page 34
                 table depicts those areas in which CDE noted deficiencies during its
                latest reviews (designated by “X”) and those areas in which we noted
                deficiencies during our audit (designated by “Y”).




                                                                     Point of service




                                                                                                                                           Food Costs Not
                                                                                                           Health & Safety
                                                    Computation or




                                                                                        Ineligible Meals
                                                    Data Transfer




                                                                                                                                                            No Daily MPR

                                                                                                                                                                           Director With


                                                                                                                                                                                           Records Not
                                                                     Count Not at




                                                                                                                                                                           No Training




                                                                                                                                                                                                                   No Training
                                                                                                                             Adult/Child



                                                                                                                                           Supported




                                                                                                                                                                                                         No Food



                                                                                                                                                                                                                   Records
                                        Nutrition
                          Eligibility




                                                                                        Claimed




                                                                                                                                                                                                         Service
                                                                                                                                                                                           Readily
                                                                                                                             Ratio
                                                    Error
           Center
    Shelton’s               XY          XY              Y               Y                  Y               Y                   Y                            Y                Y                           Y         Y

    D&L Carousel            XY                          Y               Y                XY                                                  Y              Y                Y             Y             Y

    Ebony Learning Tree     XY           Y              Y               Y                  Y               Y                   Y             Y              Y                Y             Y             Y

   Figure 5: Comparison of the areas of deficiency found during the State reviews (X) and
   the areas of deficiency found during the OIG audit (Y).

                We concluded overall that CDE needs to revise its review procedures
                to require that routine review visits to centers be unannounced, in
                order to more accurately measure their performance. For the centers
                listed in the table above, the claiming of ineligible meals was a
                conspicuous problem, but it remained undetected by CDE reviewers
                at two of the three centers. In the case of D&L Carousel, the CDE
                reviewer had noted that the center appeared to be improperly trying to
                maximize its meal claims, but when we visited the center more than 2
                years later, we found the same conditions still existed.

                Shelton’s Primary Education Center

                Shelton’s Primary Education Center (Shelton’s) (Agreement No. 01-
                1123-8A), a nonprofit corporation operating a private school located
                in Berkeley, has participated in the program since 1975, but was, in
                fact, ineligible to participate because it did not provide day care or
                serve the meals for which it claimed and was reimbursed for. These
                activities were carried out by a separate entity, a for-profit sole
                proprietorship named Shelton’s Day Care, which was collocated with
                the school. Shelton’s Day Care held the license to provide day care
                for up to 75 children ages 2 to 5. Its separate financial records for
                fiscal year 1998 reflected that it had, in fact, carried out the day care
                operations. It appeared that the center enrolled in the program under
                the name of Shelton’s Primary Education Center because program
                regulations generally limit participation in the program to
                Governmental entities and nonprofit organizations, so Shelton’s Day
                Care, as a for-profit business, would be ineligible to participate. At
                the time of our audit, for-profit entities were not allowed to participate
                in the program in California. As a result, Shelton’s received $101,668

USDA/OIG-A/27010-20-SF                                                                                                                                                                          Page 35
                         between October 1994 and January 2000 that it was not entitled to
                         receive, and may have received additional amounts prior to October
                         1994.

                         After our initial visit on February 1, 2000, Shelton’s reorganized its
                         operations. It dissolved the sole proprietorship and Shelton’s Primary
                         Education Center began operating the day care center. Shelton’s
                         Primary Education Center obtained a license to provide day care
                         effective February 15, 2000.21

                         The following table summarizes the above information:

                                                   SHELTON’S PRIMARY
                            TIMEFRAME               EDUCATION CENTER                   SHELTON’S DAY CARE
                           Through 1999            • not-for-profit corporation         • for-profit sole
                                                   • ineligible participant in             proprietorship
                                                      program                           • operator of day care
                                                                                        • holder of day care
                                                                                           license
                                                                                        • reports day care
                                                                                           operations on its
                                                                                           financial statements
                           After 1999              •
                                                absorbed Shelton’s                      • dissolved
                                                Day Care, operates
                                                day care
                                            • obtained day care
                                                license (effective
                                                2/15/00)
                                            • continues to participate
                                                in program
                         Figure 6: Summary of Licensing Activity of One Center (Shelton’s)

                         We noted a number of other serious concerns about Shelton’s
                         operations. Shelton’s regularly and, we believe intentionally, claimed a
                         substantial number of ineligible meals served to school-aged children.
                          It did not maintain adequate records to support its claims. We also
                         noted two health and safety concerns which we reported to DSS.




21
     The license authorized Shelton’s to care for 70 children aged 2 to first grade entry.


USDA/OIG-A/27010-20-SF                                                                                Page 36
             We made unannounced visits to Shelton’s on February 1 and April 28,
             2000. The director stated that the center prepared and served meals
             only to preschool children and that school-aged children brought their
             lunches and ate in their classrooms or out-of-doors. However, based
             on our observations and other information we obtained, we concluded
             that Shelton’s was, in fact, serving and claiming substantial numbers
             of ineligible meals served to school-aged children.

                •   During our initial visit on February 1, we observed 73 lunches
                    served: 59 to preschoolers and kindergarteners and 14 to
                    school-aged children. Shelton’s subsequently claimed 68
                    lunches, but only 59 meals were eligible. We saw no school-
                    aged children eating lunches they had brought to school.
                    Some school-aged children told us that their teachers had
                    taken them out for lunch on the day of our visit. Usually, they
                    said, they ate a center-prepared meal in the center’s lunch
                    area after the preschool children had eaten. An [employee]
                    later told us that the [employee] regularly served lunches to
                    preschool, kindergarten-aged, and 10 to 12 school-aged
                    children. Earlier that day, we observed 18 eligible preschool
                    children eating center-prepared breakfasts, but the center
                    claimed 20.

                    As discussed below, the center usually claimed about 75
                    meals, equal to its licensed capacity.

                §   On Friday, April 28, we observed that the center did not serve
                    lunch. An [employee] had previously told us that the [employee]
                    did not prepare lunches on Fridays, and we saw signs stating
                    that Fridays were bag lunch days. We saw preschool,
                    kindergarten-aged and school-aged children eating lunches
                    they had brought with them.

                    An [employee] had prepared four bag lunches and stated that
                    these were for any children who might have come without
                    lunches. We also saw a small quantity of tuna prepared, but an
                    [employee] explained that this was for the staff’s lunch, not for
                    the children.




USDA/OIG-A/27010-20-SF                                                     Page 37
             We were unable to obtain Shelton’s April claim, but noted that,
             according to the center’s records for FY 1999, the center regularly
             claimed about 75 lunches and snacks on a daily basis, including
             Fridays. Looking specifically at the meals claimed on Fridays, we
             found that during approximately 1½ years (from October 1998 to March
             2000), the center claimed more than 70 lunches on all but 5 Fridays.
             The center supported their claims with menus and menu production
             records also indicating they prepared and served lunches on Fridays.
              For April 28, 2000, the menu listed tuna, sliced carrots, fresh fruit,
             bread and milk.

             Based on the evidence we obtained, we concluded that Shelton’s
             likely should not have been reimbursed for any of the lunches it
             claimed on Fridays.

             We also found problems with the center’s records. Its eligibility roster
             for October 1998 listed 72 children, but the center had applications on
             file for only 53 preschool children (aged 5 years or younger). Of those
             53 applications, 5 were incorrect; 4 applications were incomplete
             and/or not signed by the parent, and 1 applicant’s eligibility status was
             incorrectly determined by the center. In addition, the center incorrectly
             reported on its October 1998 claim a total of 75 children rather than
             72 as indicated on the roster. The center also did not have
             attendance records for any period prior to January 2000. The director
             said that these records had been destroyed because she was
             unaware that they should be retained. However, regulations require
             records to be maintained for a minimum of 3 years.

             We also observed the center serving meals that did not meet program
             nutritional standards. For example, the center served no fruit or
             vegetable component at breakfast, too small a portion of vegetables
             at lunch, and too little milk. An [employee] said that even though fruit
             juice was listed on the breakfast menu, they did not serve juice (or
             fruit) at breakfast except to one child whose parents required it.

             We noted, and reported to the Department of Social Services, that the
             range-hood in the kitchen had not been adequately cleaned and that
             meat was left defrosting on a kitchen counter overnight. We also
             observed during both visits that there were too few adults supervising
             preschool children playing out-of-doors.




USDA/OIG-A/27010-20-SF                                                      Page 38
             D&L Carousel Pre-School, Inc.

             D&L Carousel Pre-School, Inc. (D&L) (Agreement No. 19-2158-5A),
             in Los Angeles, claimed a substantial number of meals, which were
             unallowable because they were served to school-aged children. D&L
             was also unable to make records available in a timely manner to
             support their claims and use of program funds.

             D&L was licensed to care for up to 45 children aged 2 to 6 years, and
             was collocated with a private school. The center’s food service
             provided meals for both preschool and school-aged children. The
             director stated that the center did not claim reimbursement for meals
             served to the school-aged children. However, we determined that
             D&L was in fact claiming a significant number of meals served to
             school-aged children.

             We made unannounced visits to D&L on December 8, 1999, and
             February 14, 2000, and observed three meal services. Subsequently,
             we obtained and reviewed their claims and supporting records for the
             dates of our visits.

             On December 8, we observed lunch service and on December 9, we
             observed both breakfast and lunch. At each meal service, the same
             meal was served to both the preschool and school-aged children.
             Subsequently, the center claimed reimbursement for significantly
             more meals than we observed being served to preschool children on
             both days, as detailed below:

                                          NUMBER OF MEALS SERVED TO PRESCHOOL
                                                       CHILDREN
                                                          CLAIMED
              DATE MEAL   TYPE OF MEAL      PER OIG          BY
              OBSERVED     OBSERVED       OBSERVATION     CENTER     DIFFERENCE
                                             19 allowable
               12/08/99   Lunch                                44           25
                                               (37 total)
                                             6 allowable
                12/09/00  Breakfast                            33           27
                                                (9 total)
                                             21 allowable
                12/09/00  Lunch                                44           23
                                               (21 total)
             Figure 7: Comparison of Meals Claimed by D&L Carousel and Observed by
             OIG




USDA/OIG-A/27010-20-SF                                                    Page 39
             We noted that the number of meals claimed exceeded the total
             number served, even when including ineligible meals served to
             school-aged children. We reviewed D&L’s claims for all of fiscal year
             1999, and found that the center regularly claimed reimbursement for
             40 to 45 lunches (near or equal to the center’s licensed capacity),
             indicating that the overclaiming was a longstanding, ongoing practice.

             CDE had noted this concern in its earlier review. On a visit in July
             1997, a CDE reviewer reported that the center consistently claimed
             reimbursement for the number of meals that equaled the center’s
             licensed capacity (45). She concluded that the center appeared to be
             commingling school-aged children and preschool children in order to
             maximize the number of meals claimed.

             D&L was also unable to provide adequate and timely records to
             support their claims. On our initial visit on December 8, the director
             said the records were at her home and that she would provide them
             the following morning, but subsequently she told us that she could not
             provide them until after January 1. We revisited the center on
             February 14, and obtained a limited number of records the following
             day.

             However, the records were not adequate to support the number of
             meals claimed or the expenditure of program funds. The eligibility
             roster for October 1998, which listed 45 children (the center’s
             licensed capacity), had not been completed correctly. It included the
             names of children for whom there were no eligibility applications on
             file.   The records also did not adequately support program
             expenditures, the number of meals claimed for August 1999 (our test
             month), or costs associated with providing meals to the school-aged
             children. The director also refused to allow us to examine the center’s
             bank statements or checkbook, which, according to her, was the only
             record of deposits of program funds and payments for food service
             expenditures.

             Ebony Learning Tree Child Care

             Ebony Learning Tree Child Care (Ebony) (Agreement No. 19-2111-
             2A), in Los Angeles, claimed a substantial number of meals that were
             unallowable because they were served to school-aged children. We
             believe that this may have occurred because the executive director
             and an [employee] did not understand program




USDA/OIG-A/27010-20-SF                                                     Page 40
             requirements. Ebony was also unable to make records available in a
             timely manner to support their claims and use of program funds, and it
             served meals, which did not contain all required components.

             Ebony was licensed to care for up to 50 children aged 2 to 6 years
             old, and was collocated with a private school. According to the
             director, their claims are based on the number of meals served, as
             recorded by an [employee] at each meal service. She also said that
             they did not claim reimbursement for the meals served to the school-
             aged children. However, we observed that this process was not
             followed.

             We made unannounced visits to Ebony on December 15, 1999, and
             February 16, 2000. Subsequently, we obtained and reviewed their
             claims and supporting records for the dates of our visits.

                •   On December 15, we observed that lunch was served to 46
                    preschool children, but on its December claim, Ebony claimed
                    only 43 lunches.

                •   On February 16, we observed two meals: breakfast and snack.
                     Twenty-two breakfasts were served, but only 11 were eligible
                    to be claimed, as the other 11 had been served to school-aged
                    children. A teacher who assisted during the breakfast service
                    told us that the number of breakfasts served and the ages of
                    the children served were typical. In December 1999, Ebony
                    claimed an average of 26 breakfasts per day, indicating that
                    the claiming of both preschool and school-aged children was a
                    normal practice.

                •   On the same date, we observed that 26 snacks had been
                    served to preschool children, but Ebony subsequently claimed
                    33 snacks. An [employee] had recorded 33 snacks, the
                    number the [employee] had prepared, not the number actually
                    served. We were told that this was done every day, as the
                    [employee] left before the snacks were served.




USDA/OIG-A/27010-20-SF                                                    Page 41
             Our observations are summarized in the following table:

                                           NUMBER OF MEALS SERVED TO PRESCHOOL
                              TYPE OF                   CHILDREN
               DATE MEAL       MEAL          PER OIG    CLAIMED BY
               OBSERVED      OBSERVED      OBSERVATION    CENTER     DIFFERENCE
                12/15/99    Lunch               46             43            -3
                02/16/00    Breakfast           11             22           11
                02/16/00    Snack               26             33             7
             Figure 8: Comparison of Number of Meals Claimed by Ebony Learning Tree
             and Observed by OIG

             Ebony was also unable to provide adequate and timely records to
             support their claims. Such records should be available for review
             immediately upon the request of an authorized U.S. Department of
             Agriculture reviewer. However, at our initial visit in mid-December,
             the director told us she could not make the records available to us
             until after January 1. Upon our revisit in February, Ebony did generally
             provide the records we needed for our review.

             Regulations require centers to operate nonprofit food services,
             meaning that all program funds are expended on allowable program
             expenses. The director told us that program funds were used to
             purchase food for both the preschool and school-aged children, and
             that she did not maintain records to allocate costs between them. We
             were therefore unable to verify if Ebony operated its program food
             service on a nonprofit basis. However, we noted that CDE had not
             explicitly notified the centers of the need to do so.

             We also found that Ebony did not always adhere to program
             nutritional requirements. Both the lunch and breakfast we observed
             lacked the required fruit or vegetable component. We also noted that
             the amount of milk served at lunch was less than the required amount.




USDA/OIG-A/27010-20-SF                                                     Page 42
 RECOMMENDATION NO. 11

             Require CDE to evaluate the operations of the three centers
             discussed in this finding to determine if they are seriously deficient in
             their operation of the program. To carry out this recommendation,
             CDE should promptly conduct unannounced visits to the three centers
             to review their operations.         If the reviews disclose serious
             deficiencies, CDE should require their prompt correction. If any
             center fails to correct its deficiencies, CDE should terminate the
             center’s participation in the program.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.



 RECOMMENDATION NO. 12

             Instruct CDE to recover the $101,668 paid to Shelton’s Primary
             Education Center. In addition, instruct CDE to determine the
             overclaim amount for the period of time not covered by our audit in
             which the center was not eligible to participate in the program, and
             establish a claim against the center in that amount.

             Agency Response

             In its written response to the draft report, FNS agreed with the
             recommendation.

             OIG Position

             We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27010-20-SF                                                      Page 43
 RECOMMENDATION NO. 13

             Require CDE to revise its review procedures to make unannounced
             visits part of its normal review process.

             Agency Response

             In its written response to the draft report, FNS suggested changes to
             the wording of the recommendation.

             OIG Position

             We revised the wording of the recommendation, and accept FNS’
             management decision on it.




USDA/OIG-A/27010-20-SF                                                   Page 44
EXHIBIT A – SUMMARY OF MONETARY RESULTS

RECOMMENDATION
    NUMBER           DESCRIPTION        AMOUNT       CATEGORY

        12            Ineligible Meal   $101,668   Questioned Cost –
                     Reimbursement                    Recovery
                    Paid to Shelton’s               Recommended
                    Primary Education
                          Center

TOTAL MONETARY                          $101,668
   RESULTS




USDA/OIG-A/27010-20-SF                                      Page 45
EXHIBIT B – LOCATIONS VISITED

                                               LOCATION    AGREEMENT
        ORGANIZATION / ENTITY                  (COUNTY)     NUMBER
Food and Nutrition Service                 San Francisco
California Department of Education         Sacramento
Change Thru Xanthos                        Alameda         01-1108-9A
Community Development Center               Los Angeles     19-2014-8A
Associated Students - California State     Sacramento      34-1511-4A
University, Sacramento Children’s Center
D&L Carousel Preschool                     Los Angeles     19-2158-5A
Day Care Center of Oak Park                Sacramento      34-1500-7A
Ebony Learning Tree                        Los Angeles     19-2111-2A
Ephesian Children’s Center                 Alameda         01-1142-8A
Faithful Central Education Center          Los Angeles     19-1364-8A
Grace Day Home, Inc.                       Sacramento      34-1513-3A
Lossieland Daycare                         Alameda         01-2357-1A
Shelton’s Primary Education Center         Alameda         01-1123-8A
Tomi’s Preschool                           Los Angeles     19-2264-9A
Broderick Christian Center                 Sacramento      34-1882-9A
Wee Li’l People Preschool                  Alameda         01-2362-5A
Wonderland Preschool                       Sacramento      34-1875-3A




USDA/OIG-A/27010-20-SF                                          Page 46
EXHIBIT C – CENTERS SERVING MEALS THAT DID NOT MEET
            NUTRITIONAL STANDARDS
  CENTER           DATE OF      MEAL       DEFICIENCY
   NAME             VISIT     OBSERVED       NOTED            COMMENTS
Associated          2/23/00     Supper         X        Toddler’s classroom did not
Students -                                                  serve vegetables.
California State    2/24/00    Breakfast
University,         2/24/00     Lunch          X         Insufficient meat/alternate,
Sacramento                                                 fruits, vegetables served
Children’s
Center
                   12/15/99     Lunch          X         Inadequate quantity of milk
Ebony Learning                                             and lacked two kinds of
Tree                                                         vegetables or fruits
                    2/16/00    Breakfast       X         No fruit or vegetable served
                    2/16/00     Snack
Faithful Central    12/6/99     Lunch
Education           12/7/99    Breakfast       X        No fruits / vegetables served
Center
                    2/1/00     Breakfast       X        Not enough milk and no fruit /
                                                          juice / vegetable served
Shelton’s           2/1/00      Lunch          X         Not enough milk and meat
Primary                                                             served
Education           2/2/00     Breakfast
Center              2/2/00      Lunch          X           Not enough fruit and no
                                                              vegetable served
Broderick           2/25/00    Breakfast       X           Not enough milk for all
Christian Center                                                  children
                    2/25/00     Lunch
      Total                      14            9




USDA/OIG-A/27010-20-SF                                                     Page 47
EXHIBIT D – SUMMARY OF DISCREPANCIES NOTED

                                                          Finding No. 1                             Finding No. 2        Finding No. 3
                                                              Claims
                                                             Based on
                                                            Attendance
                                                Computation Records/       Counts                    Meals Did
                                    Eligibility   or Data   Number of      Not at      Claimed       Not Meet         Health
                                   Incorrectly   Transfer    Children     Point-of -   Ineligible    Nutritional     & Safety    Adult/Child
               Centers             Determined      Errors     Present     Service        Meals       Standards      Deficiency     Ratio

AS-CSUS Children’s Center              X           X                          X                          X

Change Thru Xanthos                    X           X                          X

Community Development Center           X

D&L Carousel                           X           X                          X            X

Ebony Learning Tree                    X           X            X             X            X             X              X            X

Ephesian Children Center               X                        X             X                                         X

Faithful Central                       X                        X             X                          X

Grace Day Home                         X                                                                                X

Lossieland Preschool                   X

Oak Park                               X                        X             X

Shelton's Primary Education Ctr.       X           X                          X            X             X              X            X

Tomi's Preschool                       X

Broderick Christian Center             X                        X             X                          X              X

Wee Li’l People                        X           X                                       X                            X            X

Wonderland                             X           X                                                                    X




USDA/OIG-A/27010-20-SF                                                                                                      Page 48
EXHIBIT D – SUMMARY OF DISCREPANCIES NOTED

                                                             Finding No. 4



                                     Food       No     No Food   No Staff    Directors    Records
                                   Costs Not   Daily   Service   Training    With No     Not Readily
Centers                            Supported   MPR     Monitor   Records     Training     Available

AS-CSUS Children’s Cent er                      X                    X

Change Thru Xanthos

Community Development Center

D&L Carousel                           X        X        X                      X            X

Ebony Learning Tree                    X        X        X                      X            X

Ephesian's Children Center                      X

Faithful Central                                X

Grace Day Home                                  X                               X

Lossieland Preschool                   X                             X          X

Oak Park                                                 X           X          X

Shelton's Primary Education Ctr.                X        X           X          X

Tomi's Preschool                       X                 X                      X

Broderick Christian Center                      X        X                      X

Wee Li’l People                        X        X        X           X          X

Wonderland                                                                      X




USDA/OIG-A/27010-20-SF                                                                                 Page 49
EXHIBIT E – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27010-20-SF                          Page 50
EXHIBIT E – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27010-20-SF                          Page 51
